      U.S. ELECTION ASSISTANCE

             COMMISSION

    OFFICE OF INSPECTOR GENERAL





          INDEPENDENT AUDITORS’ REPORT

      U.S. ELECTION ASSISTANCE COMMISSION

            FINANCIAL STATEMENTS FOR

                FY 2013 AND FY 2012





NO. I-PA-EAC-01-13
DECEMBER 2013
                               U.S. ELECTION ASSISTANCE COMMISSION

                                        OFFICE OF INSPECTOR GENERAL



                                                                              December 16, 2013


Memorandum

To:	       Ms. Alice Miller
           Acting Executive Director

From:	     Curtis W. Crider
           Inspector General, U.S. Election Assistance Commission

Subject:	 Audit Report of the U.S. Election Assistance Commission’s Financial Statements for
          Fiscal Years 2013 and 2012 (Assignment No. I-PA-EAC-01-13)

Introduction

The Chief Financial Officer’s (CFO) Act of 1990 (P.L. 101-576) as amended, requires the
Inspector General for the U. S. Election Assistance Commission (EAC) or an independent
external auditor, as determined by the Inspector General, to audit EAC’s financial statements.
The independent public accounting firm of Leon Snead & Company, P.C. (LSC) performed the
audit of the EAC’s financial statements as of September 30, 2013 and 2012 and for the years
then ended. The audit was performed by LSC under a contract that was monitored by the Office
of Inspector General (OIG). The contract required that the audit be performed in accordance
with Government Auditing Standards issued by the Comptroller General of the United States and
the Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements.

Results of Audit

In its audit report, LSC issued a disclaimer on EAC’s financial statements. LSC identified two
material weaknesses in internal control over financial reporting. In addition LSC identified that
there were significant and pervasive uncertainties relating to the validity of approximately $2.2
million in grant accruals, as well as, the validity of obligations totaling approximately $900,000
relating to the 2008 requirements payment appropriation and reported in the FY 2013 financial
statements. The resolution of the uncertainties which are pending a legal opinion, could result in
the agency needing to report an Anti-Deficiency Act violation and an improper payment.

Evaluation of Leon Snead & Co. P.C.’s Audit Performance

To fulfill our responsibilities under the CFO Act of 1990, as amended, and other related financial
management requirements, the OIG:
   •	 Reviewed Leon Snead & Co. P.C.’s approach and planning of the audit;

   •	 Evaluated the qualification and independence of the auditors;

   •	 Monitored the progress of the audit at key points;

   •	 Coordinated periodic meetings with EAC management to discuss progress, findings, and
      recommendations;

   •	 Reviewed Leon Snead & Co. P.C.’s audit report;

   •	 Performed other procedures we deemed necessary; and

   •	 Coordinated issuance of the audit report.

Leon Snead & Co. P.C. is responsible for the attached auditor’s report and the conclusions
expressed in the report. We do not express any opinion on EAC’s financial statements or
conclusions on the effectiveness of internal control, or compliance with laws and regulations.

Report Distribution

The Inspector General Act of 1978, as amended, requires semiannual reporting to Congress on all
reports issued, actions taken to implement recommendation, and recommendations that have not
been implemented. Therefore, we will include the information in the attached audit report in our
next semiannual report to Congress. The distribution of this report is not restricted and copies are
available for public inspection.

The Office of Inspector General appreciates the courtesies and cooperation EAC extended to
Leon Snead & Co. P.C. and the OIG staff during the audit. If you, or your staff, have any
questions, please contact me at (301) 734-3104.



Attachment
   Election Assistance Commission


       Audit of Financial Statements


        As of and for the Years Ended

        September 30, 2013 and 2012





                   Submitted By


            Leon Snead & Company, P.C.

Certified Public Accountants & Management Consultants
                                   TABLE OF CONTENTS




                                                                                                                        Page


Independent Auditor’s Report..............................................................................................1


Basis for Disclaimer of Opinion ..........................................................................................2


Disclaimer of Opinion..........................................................................................................3


Report on Internal Control ...................................................................................................4


Report on Compliance .......................................................................................................12


Attachment 1, Status of Audit Recommendations.............................................................14


Attachment 2, Agency Response to Draft Report..............................................................16





                                                               i
LEON SNEAD                                                                               Certified Public Accountants
& COMPANY, P.C.                                                                          & Management Consultants
416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
Fax: 301-738-8210
leonsnead.companypc@erols.com



                                     Independent Auditor’s Report

         Acting Executive Director, Election Assistance Commission

         Inspector General, Election Assistance Commission


         We were engaged to audit the accompanying financial statements of the U.S. Election
         Assistance Commission (EAC) which comprise the balance sheet, as of September 30,
         2013 and September 30, 2012, the related statements of net cost, changes in net position,
         and budgetary resources for the years then ended, and the related notes to the financial
         statements.

         SUMMARY

         For fiscal years (FY) 2013 and 2012, and as further discussed in the Basis for Disclaimer
         of Opinion paragraph, we were unable to obtain sufficient appropriate audit evidence on
         which to base an opinion, and we concluded that the possible effects on the financial
         statements of undetected misstatements, if any, could be both material and pervasive.
         Because of the significance of the uncertainties, we have not been able to obtain
         sufficient appropriate audit evidence to provide a basis for an audit opinion and
         accordingly, we do not express an opinion on the financial statements.

         Our consideration of internal control would not necessarily disclose all deficiencies in
         internal control over financial reporting that might be material weaknesses under
         standards issued by the American Institute of Certified Public Accountants. However,
         our testing of internal control identified two material weaknesses. We also identified a
         significant deficiency related to financial statement preparation and support.

         As discussed further in our Basis for Disclaimer of Opinion paragraph, we identified that
         there were certain significant transactions that pending a legal decision, and related
         management determination could result in EAC’s noncompliance with certain significant
         provisions of laws, regulations, contracts and grant agreements that have a material effect
         on the financial statements.

         REPORT ON THE FINANCIAL STATEMENTS

         We were engaged to audit the accompanying financial statements of the EAC which
         comprise the balance sheet, as of September 30, 2013 and September 30, 2012, the
         related statements of net cost, changes in net position, and budgetary resources for
         the years then ended, and the related notes to the financial statements.
Management’s Responsibility for the Financial Statements.

Management is responsible for the preparation and fair presentation of these financial
statements in accordance with accounting principles generally accepted in the United
States of America; this includes the design, implementation, and maintenance of internal
control relevant to the preparation and fair presentation of financial statements that are
free from material misstatement, whether due to fraud or error.
Auditor’s Responsibility

Our responsibility is to express an opinion on the financial statements based on
conducting the audit in accordance with auditing standards generally accepted in the
United States of America. Because of the matters described in the Basis for Disclaimer
of Opinion paragraph; we were not able to obtain sufficient appropriate audit evidence to
provide a basis for an audit opinion.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditor’s
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments in a Federal
agency, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing opinions on the
effectiveness of the agency’s internal control or its compliance with laws, regulations,
and significant provisions of contracts. Accordingly, no opinion is expressed.

Basis for Disclaimer of Opinion on the FY 2013 and 2012 Financial Statements

EAC and its service provider made significant efforts to identify and correct errors
impacting the FY 2012 financial statements, and to strengthen internal controls during
FY 2013; however, internal controls over financial reporting were ineffective in FY 2012.
As a result of material weaknesses in internal control, we were unable to obtain sufficient
competent evidential support for the restated amounts presented in the balance sheet as of
September 30, 2012, and the related restated statements of net cost, changes in net
position, and budgetary resources for the year then ended.

During our audit, we were advised by EAC officials that while EAC believed that they
had properly presented the FY 2013 financial statements, there were significant and
pervasive uncertainties relating to a grant liability accrual, as well as, the validity of
remaining obligations reported for a 2008 requirements payments appropriation in the
2013 financial statements. EAC officials advised they were requesting legal counsel to
assist in confirming the propriety of an approximately $2.2 million grant accrual made
from a FY 2008 requirements payments appropriation to one grantee, as well as, the
approximately $900,000 in related open obligations recorded in the FY 2013 financial
statements. The EAC’s service provider subsequently disbursed the $2.2 million
payment to the grantee in October 2013.



Leon Snead & Company, P.C.                       2
Significant uncertainties concerning the final resolution of the issues discussed above and
in further detail in the findings and recommendations section of this report existed at the
audit’s completion. Based upon the existing conditions and available audit evidence, we
have concluded that significant uncertainties exist relating to the reporting of expenses
and obligations recorded in the fiscal year 2013 financial statements and it is not possible
to form an opinion on the financial statements as a whole due to the interaction and
possible cumulative effects of the uncertainties.

Disclaimer of Opinion on the 2013 and 2012 Financial Statements

Because of the significance of the matters described in the Basis for Disclaimer of
Opinion paragraph, we have not been able to obtain sufficient appropriate audit evidence
to provide a basis for an audit opinion. Accordingly, we do not express an opinion on the
FY 2013 and 2012 financial statements.

Restatement of Previously-Issued Financial Statements

In our report dated November 14, 2012, we disclaimed an opinion for FY 2012 financial
statements because EAC was unable to provide accurate and timely accounting
information from its general ledger, could not support amounts recorded for its grant
expenses incurred, advances paid, and open obligations. Due to internal control and other
accounting issues we were unable to obtain sufficient competent evidential support for
the amounts presented. As described in Note 15, EAC and its service provider reviewed
their accounting records, and made adjustments to the general ledger to correct
accounting errors impacting fiscal year 2012 and restated its 2012 financial statements.
However, due to the material internal control issues discussed in Basis for Disclaimer of
Opinion paragraph, and our 2012 audit report, we have not been able to obtain sufficient
appropriate audit evidence to provide a basis for an audit opinion on the restated 2012
financial statements. Accordingly, we do not express an opinion on these financial
statements.

OTHER MATTERS

Required Supplementary Information and Required Supplementary Stewardship Information

Accounting principles generally accepted in the United States of America require that
Management’s Discussion and Analysis and information about investments in
non-Federal physical property, and research be presented to supplement the basic
financial statements. Such information, although not a part of the basic financial
statements, is required by the Federal Accounting Standards Advisory Board (FASAB)
who considers it to be an essential part of financial reporting for placing the basic
financial statements in an appropriate operational, economic, or historical context. We
have applied certain limited procedures to the required supplementary information and
required supplementary stewardship information in accordance with auditing standards
generally accepted in the United States of America, which consisted of inquiries
of management about the methods of preparing the information and comparing the



Leon Snead & Company, P.C.                       3
information for consistency with management’s responses to our inquiries, the financial
statements, and other knowledge we obtained during our audit of the financial statements.
We do not express an opinion or provide any assurance on the information because the
limited procedures do not provide us with sufficient evidence to express an opinion or
provide any assurance, and due to the uncertainties discussed in the Basis for Disclaimer
of Opinion paragraph.

Other Accompanying Information

The performance measures, and other related information are presented for the purposes
of additional analysis and are not required parts of the basic financial statements. Such
information has not been subjected to the auditing procedures applied in the audit of the
basic financial statements, and accordingly, we do not express an opinion or provide any
assurance on it.

OTHER AUDITOR REPORTING REQUIREMENTS
Report on Internal Control

In planning and performing our audit of the financial statements of EAC, as of and for,
the years ended September 30, 2013 and 2012, in accordance with auditing standards
generally accepted in the United States of America, except as noted in our Disclaimer of
Opinion paragraph, we considered the EAC’s internal control over financial reporting
(internal control) as a basis for designing audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the financial statements, but
not for the purpose of expressing an opinion on the effectiveness of the EAC’s internal
control. Accordingly, we do not express an opinion on the effectiveness of the EAC’s
internal control.

Our consideration of internal control was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in internal control
that might be material weaknesses or significant deficiencies and therefore, material
weaknesses or significant deficiencies may exist that were not identified. However, as
discussed below, we identified certain deficiencies in internal control that we consider to
be material weaknesses and significant deficiencies.

Because of inherent limitations in internal controls, including the possibility of override
of controls, misstatements, losses, or noncompliance may nevertheless occur and not be
detected. A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their
assigned functions, to prevent, or detect and correct, misstatements on a timely basis. A
material weakness is a deficiency or a combination of deficiencies, in internal control,
such that there is a reasonable possibility that a material misstatement of the entity’s
financial statements will not be prevented, or detected and corrected, on a timely basis.
We consider findings two and three to be material weaknesses.




Leon Snead & Company, P.C.                      4
FINDINGS AND RECOMMENDATIONS

1.	 Significant Uncertainties Relating to Transactions Recorded in a FY 2008
    Appropriation and Reported in the 2013 Financial Statements

    As discussed in our Basis for Disclaimer of Opinion paragraph and other pertinent
    sections of this report, EAC officials advised that while EAC believed that they had
    properly presented the FY 2013 financial statements, significant uncertainties exist
    relating to the accrual of an approximately $2.2 million grant payment, as well as the
    validity of remaining obligations totaling approximately $900,000 reported for a
    2008 requirements payments appropriation. The 2008 requirements payments
    appropriation, among other actions, provided $115 million for requirements
    payments 1. Unlike prior and subsequent years the statement “available until
    expended” was not included in the 2008 requirements payments appropriation
    language. EAC and its previous and current service providers recorded the
    appropriation as an annual appropriation, and the funds were all obligated in FY 2008
    by operation of law.

    The significant uncertainties surrounding the financial events recorded in the 2013
    financial statements relate to whether the 2008 requirements payments appropriation:
    (1) should be cancelled as required by 31 USC § 1552 which provides that “On
    September 30th of the 5th fiscal year after the period of availability for obligation of a
    fixed appropriation account ends, the account shall be closed and any remaining
    balance (whether obligated or unobligated) in the account shall be canceled and
    thereafter shall not be available for obligation or expenditure for any purpose”; or (2)
    obligations remain available until disbursed regardless of the fiscal year.

    In discussions with EAC officials, we were advised that a legal opinion was needed to
    provide additional authoritative guidance to EAC officials to assist in resolving
    significant uncertainties about the propriety of the grant accrual, as well as related
    obligations recorded in the FY 2013 financial statements for the 2008 requirements
    payments appropriation.

    The conflicting information obtained about the propriety of the reporting of the
    2008 requirements payments appropriation in the 2013 financial statements varies
    significantly, as discussed below.




1
  The Help America Vote Act of 2002 established the EAC to assist in the administration of federal
elections and charged the EAC with distributing payments to states under its authorized funding programs.
HAVA authorizes payments to states for certain enumerated purposes, including meeting the requirements
of Title III of HAVA. These payments are called “requirements payments.” HAVA provides that EAC shall
make requirements payments in an amount determined by a specified allocation formula to each state that
meets the statutory preconditions for the receipt of the requirements payments. For fiscal year 2008,
Congress appropriated $115,000,000 for requirements payments under part 1 of subtitle D of title II of the
Help America Vote Act of 2002.


Leon Snead & Company, P.C.	                             5
       •	 In a June 26, 2008, legal opinion, EAC General Counsel (GC) officials stated
          the following:

               “While the 2008 requirements payments are obligated by operation of law,
               as an annual appropriation its availability is limited. Federal statute
               mandates that "On September 30th of the 5th fiscal year after the period of
               availability for obligation of a fixed appropriation account ends, the
               account shall be closed and any remaining balance (whether obligated or
               unobligated) in the account shall be cancelled and thereafter shall not be
               available for obligation or expenditure for any purpose." 31 U.S.C. §1552.
               Like all annual appropriations, the 2008 requirements payments will only
               remain available for a period of five years after the period of availability
               (Fiscal Year 2008). Thus, any funding not disbursed to states after this
               five year period will be returned the Treasury.”

           Under this opinion, if still valid, the approximately $900,000 in obligations
           reported for the 2008 requirements payments appropriation, as well as, the
           approximately $2.2 million in grant expenses included in these statements
           would be improper, and would result in numerous line items in the financial
           statements being materially misstated.

       •	 In discussions with EAC officials, review of available records and documents
          concerning the 2008 requirements payments appropriation, we noted the
          following.

              The agency’s service provider cancelled the 2008 requirements payments
               appropriation, and the general ledger trial balances reflected these
               funds as cancelled. The agency’s FACTS I and FACTS II reports were
               filed on November 8, 2013, reflecting the 2008 requirements payments
               appropriation as cancelled without the approximately $2.2 million
               disbursement having been made.

              EAC officials forwarded documents authorizing the approximately $2.2
               million grant disbursement to its service provider in mid-October 2013,
               immediately after the government shutdown ended, and noted that its
               service provider should use available obligations in the 2008 requirements
               payments appropriation. EAC’s service provider disbursed these funds to
               the grantee shortly after the grant documentation was provided to it by
               EAC.

              The 2013 financial statements presented for audit on December 2, 2013,
               included as “topside” adjustments to the general ledger entries to record
               the accrual of the approximately $2.2 million accounts payable (and
               related entries), and entries to record the approximately $900,000 in
               undelivered orders remaining in the 2008 requirements payments




Leon Snead & Company, P.C.	                     6
                  appropriation. This supports that the 2008 requirements payments
                  appropriation should not have been and was not cancelled.

                 During our audit, we were advised by officials from EAC’s service
                  provider, and obtained documentation indicating some EAC personnel
                  concurred that the 2008 requirements payments appropriation was
                  available, and did not need to be cancelled. In addition, we were advised
                  by EAC’s service provider that OMB, at some point, believed that the
                  2008 requirements payments appropriations remained available to EAC.

                 During our audit, we were also advised by other EAC officials and
                  officials from EAC’s service provider that the 2008 requirements
                  payments appropriation was no longer available, that funds could not be
                  disbursed from this appropriation after the end of fiscal year 2013, and
                  that undelivered orders were no longer valid. We have also been advised
                  that OMB officials believed that the 2008 requirements payments
                  appropriation should have been cancelled at the end of the 2013 fiscal
                  year.

    If the final definitive, authoritative decision by EAC management is that the 2008
    requirements payments appropriation remains available to EAC, the 2013 financial
    statements properly present the transactions occurring for this appropriation.
    However, if it is determined that the 2008 requirements payments appropriation
    should have been cancelled, the 2013 financial statements presented for audit are
    materially misstated, and the agency potentially must report the approximately $2.2
    million disbursement as an Anti-Deficiency Act (ADA) 2 violation and as an improper
    payment. This payment was disbursed in mid-October 2013.

    We have concluded that there are pervasive and significant uncertainties surrounding
    the propriety of the approximately $2.2 million accrual, and the approximately
    $900,000 in obligations included in the 2013 financial statements concerning the
    2008 requirements payments appropriation. Because of these uncertainties, it is not
    possible to form an opinion on the financial statements as a whole due to the

2
    Once it is determined that there has been a violation of 31 U.S.C. §§ 1341(a), 1342, or 1517(a), the
agency head "shall report immediately to the President and Congress all relevant facts and a statement of
actions taken." 31 U.S.C. §§ 1351, 1517(b). The reports are to be signed by the agency head. The report to
the President is to be forwarded through the Director of OMB. In addition, the heads of executive branch
agencies and the Mayor of the District of Columbia shall also transmit "[a] copy of each report . . . to the
Comptroller General on the same date the report is transmitted to the President and Congress." 31 U.S.C.
§§ 1351, 1517(b), as amended by the Consolidated Appropriations Act, 2005, Pub. L. No. 108-447, div. G,
title II, § 1401, 118 Stat. 2809, 3192 (Dec. 8, 2004).

OMB has issued further instructions on preparing the reports, which may be found in OMB Circular No.
A-11, Preparation, Submission, and Execution of the Budget, § 145 (June 21, 2005). The report is to
include all pertinent facts and a statement of all actions taken to address and correct the Antideficiency Act
violation (such as administrative discipline imposed, referral to the Justice Department where appropriate,
and new safeguards imposed). An agency also should include a request for a supplemental or deficiency
appropriation when needed.


Leon Snead & Company, P.C.	                               7
   interaction and possible cumulative effects of the uncertainties. Accordingly, we do
   not express an opinion on the 2013 financial statements.

   Recommendations

       1.	 Fully document all interim decisions made concerning the accrual and
           subsequent disbursement of the approximately $2.2 million payment made to
           one grantee from 2008 requirements payments appropriations. Based upon an
           assessment of this documentation, strengthen internal control processes at
           EAC and, as appropriate, request internal controls at the service provider be
           further strengthened in this area.

       2.	 Take action, if EAC management officials determine, based upon
           authoritative legal guidance, that the 2008 requirements payments
           appropriation should have been cancelled, to meet the reporting requirements
           of the ADA and OMB Circular A-136.

2.	 Interim Financial Statements Were Materially Misstated

   The 2013 interim financial statements and footnotes provided to us for testing, and
   submitted to the Office of Management and Budget (OMB), as required by OMB
   Circular A-136, Financial Reporting Requirements, contained material
   misstatements. EAC and its service provider needed to strengthen their oversight and
   review of transactions processed in the General Ledger, and internal controls over
   financial reporting. Had EAC’s internal controls over financial reporting been in
   place and operating effectively, the errors we identified would have been detected and
   corrected in the financial statements and budgetary reports. As a result, EAC’s
   interim financial statements and the FACTS II (SF-133 Report on Budget Execution
   and Budgetary Resources) submissions to OMB were materially misstated for the
   first three quarters of FY 2013.

   OMB Circular A-127, Financial Management Systems, requires that “financial events
   shall be recorded applying the requirements of the U.S. Government Standard
   General Ledger (USSGL). Application of the USSGL at the transaction level means
   that each time an approved transaction is recorded in the system, it will generate
   appropriate general ledger accounts for posting the transaction according to the rules
   defined in the USSGL guidance.”

   The GAO’s, Standards for Internal Control in the Federal Government, provides that
   internal control and all transactions and other significant events need to be clearly
   documented, and the documentation should be readily available for examination. The
   GAO standards further provide, “Internal control should generally be designed to
   assure that ongoing monitoring occurs in the course of normal operations. It is
   performed continually and is ingrained in the agency’s operations. It includes regular
   management and supervisory activities, comparisons, reconciliations, and other
   actions people take in performing their duties.”



Leon Snead & Company, P.C.	                    8
   Office of Management and Budget (OMB) Circular No. A-123, Management’s
   Responsibility for Internal Control, states “The agency head must establish controls
   that reasonably ensure that obligations and costs are in compliance with applicable
   laws; funds, property, and other assets are safeguarded against waste, loss,
   unauthorized use, or misappropriation; and revenues and expenditures applicable to
   agency operations are properly recorded and accounted for to permit the preparation
   of accounts and reliable financial and statistical reports...”

   OMB Circular A-136, Section 11.4.1 provides that reporting entities should ensure
   that information in the financial statements is presented in accordance with GAAP for
   Federal entities and the requirements of the Circular.

   Until September 2013, prior year errors made in the general ledger postings of
   accounts payable accruals, and errors in the balance of outstanding undelivered orders
   remained uncorrected, and resulted in the 2013 interim financial statements and
   reports being materially misstated. In addition, EAC and its service provider
   processed journal voucher (JV) entries that were not in accordance with the United
   States Standard General Ledger (USSGL) causing additional material misstatements.
   The following paragraphs provide details of the problems noted.

   •	 We first reported problems with undelivered orders in our 2011 audit report, and
      continued to report significant out of balance conditions between the general
      ledger and subsidiary ledgers in our 2012 financial statement audit report. This
      problem contributed to the reporting of material internal control weaknesses and
      to the disclaimer of opinion on the financial statements for 2012. EAC and its
      service provider have been working to correct this long-standing problem since
      late in fiscal year 2012 when EAC moved their accounting operations to this
      service provider. EAC and the current service provider believe they have
      processed entries to correct this problem.
   •	 Shortly after we initiated our testing of the June 30, 2013, interim financial
      statements, we determined that the FY 2013 statements contained errors resulting
      from the incorrect posting of EAC FY 2012 accounts payable accruals. This
      problem began during conversion of data from the previous service provider when
      accruals were incorrectly recorded as a standard payable, meaning that the amount
      would not be reversed the next accounting period. EAC’s service provider had
      detected this error in June 2013, but erroneously posted JV to reverse these
      accruals to current year expenses. Therefore, this material error resulted in an
      approximately $700,000 overstatement of FY 2012 accounts payable and
      expenses, and understated undelivered orders, and subsequently misstated FY
      2013 accounts payable and expenses, and undelivered orders.
   •	 We have reported in prior years that numerous JVs were either improper or were
      not supported resulting in a material internal control weakness. During our
      interim testing of the June 30, 2013, financial statements, we reviewed JVs, and



Leon Snead & Company, P.C.	                    9
       noted that improvements were made in documentation supporting JVs. However,
       we continued to find that material errors were being made in the posting models
       used for these JVs. Details follow:
   •	 A $201,230 adjustment was incorrectly made to reduce current year expenses to
      correct a prior year error. When we questioned this entry, it was later determined
      that the account payable was valid, and this entry was reversed.
   •	 When grant funds were refunded to EAC in FY 2013, an adjusting JV did not
      contain a posting to GL 4802, as required by the USSGL, to remove the prepaid
      obligation remaining in the account from FY 2012 and totaling approximately
      $302,000 causing an overstatement of obligations incurred in FY 2013. The
      agency agreed with us, and posted a correcting JV.
   •	 The permanent reduction of about $440,000 required by the sequestration
      legislation had neither been recorded, as required by authoritative guidance, to the
      EAC general ledger, nor properly presented in the June 30, 2013, interim financial
      statements. We determined that the EAC had properly calculated this reduction
      and had operational plans to make necessary budgetary adjustments; however,
      agency and service provider accounting personnel elected to not record the
      accounting entries without receiving a negative warrant. This error resulted in
      material misstatements to the agency’s June 30, 2013, third quarter FACTS II
      reports, and several financial statement line items by about $440,000.
   •	 Documentation provided to support the breakout of governmental and public
      accounts payable line items on the balance sheet, and the Statement of Net Cost
      (SNC) footnote did not contain sufficient information to enable us to determine
      whether the information was correct, or did not support the financial statement
      presentations. Also, the spreadsheet used to allocate costs to the agency’s
      responsibility segments to support the SNC footnote was not updated to reflect the
      current staffing levels, and since staffing levels are used to allocate material costs
      between the responsibility segments this error was significant.
   •	 Errors were identified with the plant, property and equipment line item and
      related footnote. The depreciation schedule for two property items showed the
      agency and service provider made errors in calculating depreciation. For
      example, our audit tests showed that one property item was put in service in July
      2011 while the agency showed the property was placed in service about 14
      months later. This resulted in understatement of accumulated depreciation and an
      overstatement of plant, property and equipment.
   •	 GL 4450, Unapportioned Authority, contained an unexplained balance of about
      $234,000.

   Recommendations

       3.	 Ensure a comprehensive analysis of JVs is completed prior to approving JVs
           prepared by the service provider. Analyze the problems reported with JVs


Leon Snead & Company, P.C.	                     10
           processed during 2013, and strengthen controls to preclude these errors from
           recurring.
       4.	 Develop specific information requirements and financial statement
           preparation checklists that the service provider and EAC must complete,
           including affirmation that documentation is sufficient and supports all
           financial statements and footnotes, prior to submitting financial statements to
           OMB and for audit.
       5.	 Strengthen internal controls to ensure that necessary supporting
           documentation for all financial statement line items and footnotes is compiled,
           reviewed, and approved by EAC personnel before submitting the financial
           statements for audit and to OMB.
       6.	 Strengthen the quality control process used by EAC to ensure that financial
           statements and reports presented to OMB and for audit are fairly stated in all
           material respects, and in accordance with FASAB, USSGL, and A-136.

3.	 Restatement of Fiscal Year 2012 Financial Statements

   In our report dated November 14, 2012, we disclaimed an opinion for fiscal year 2012
   financial statements. This was because EAC and its service provider were unable to
   provide accurate and timely accounting information from its general ledger, could not
   support amounts recorded for its grant expenses incurred and advances paid, and
   because of material internal control weaknesses, and other accounting issues.
   Therefore, we were unable to obtain sufficient appropriate audit evidence to provide a
   basis for an audit opinion. Accordingly, we did not express an opinion on the FY
   2012 financial statements.

   EAC and its service provider worked throughout most of fiscal year 2013 to review
   accounting records and detailed supporting information in order to determine the
   financial impact of the problems we reported, and determine what adjustments to the
   general ledger were necessary. As a result of these efforts, EAC restated its 2012
   financial statements. The value of the adjustments made to the 2012 financial
   statement line items total approximately $5.2 million. We tested the actions taken by
   the EAC and its service provider, and concurred in the valuation and recording of
   these adjustments. However, due to the extent of material internal control issues
   reported, we have not been able to obtain sufficient appropriate audit evidence to
   provide a basis for an audit opinion on the restated 2012 financial statements.

   As required by OMB Circular A-136, EAC must report this restatement as a material
   internal control weakness over financial reporting in the agency’s Federal Mangers
   Financial Integrity Act (FMFIA) management assurance report for fiscal year 2013.
   We determined that the EAC has reported this material weakness in its FMFIA report.

   Since we included audit recommendations to address the material internal control
   weaknesses in our 2012 financial statement audit report, we are making no
   recommendations on this matter in this report.


Leon Snead & Company, P.C.	                    11
Management of EAC reported the aforementioned material weaknesses in its reporting
prepared pursuant to the Federal Managers’ Financial Integrity Act (FMFIA).

A summary of the status of prior year findings is included as Attachment 1.

Report on Compliance

We performed tests of EAC’s compliance with certain provisions of laws, regulations,
and significant provisions of contracts, and grant agreements, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts, and certain other laws and regulations specified in the OMB audit bulletin. We
limited our tests of compliance to these provisions, and we did not test compliance with
all laws and regulations applicable to the EAC. Providing an opinion on compliance with
certain provisions of laws, regulations, and significant contract provisions, and grant
agreements was not an objective of our audit and, accordingly, we do not express such an
opinion.

As discussed in detail in Finding No. 1, during our audit, we obtained information from
EAC officials that there were significant and pervasive uncertainties relating to the
validity of approximately $2.2 million in grant accruals, as well as, the validity of
obligations totaling approximately $900,000 relating to the 2008 requirements payment
appropriation and reported in the FY 2013 financial statements. The resolution of these
uncertainties which are pending a legal opinion could result in the agency needing to
report an ADA violation and an improper payment.

Because of these significant and pervasive uncertainties, we were unable to determine
whether the EAC complied with applicable laws, regulations, or significant provisions of
laws, regulations, contracts and grant agreements that have a material effect on the
financial statements insofar as they relate to accounting matters.
Purpose of the Other Reporting Required by Government Auditing Standards
The purpose of the communication provided in the Other Reporting Required by
Government Auditing Standards section is solely to describe the scope of our testing of
internal control and compliance and the results of that testing, and not to provide an
opinion on the effectiveness of the agency's internal control or on compliance. This
communication is an integral part of an audit performed in accordance with U.S.
generally accepted government auditing standards in considering internal control and
compliance with provisions of laws, regulations, contracts, and grant agreements that
have a material effect on the financial statements. Accordingly, this communication is
not suitable for any other purpose.

Agency Response

In a memorandum dated December 13, 2013, EAC officials generally concurred with the
report’s findings and recommendations. In addition, EAC officials provided specific



Leon Snead & Company, P.C.                     12
actions that they agency planned to take to address the recommendations in this report. A
copy of management’s response is included, in its entirety, as Attachment 2.

Auditor Comments

Since EAC officials general agreed with the recommendations, and provided the actions
the agency plans to take, we have no additional comments.

This report is intended solely for the information and use of the management, the EAC,
the Office of Inspector General, and others within the EAC, OMB, and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.


Leon Snead & Company, P.C.
Rockville, Maryland
December 16, 2013




Leon Snead & Company, P.C.                     13
                                                                                        Attachment 1


                              Status of Prior Year Findings

Finding    Rec            FY 2012 Recommendations                                  Status
  No.      Nos.
                  Ensure that EAC personnel with federal               Closed.
                  accounting expertise, including the preparation
                  of financial statements, are available to assist
            1
                  EAC officials in providing appropriate oversight
                  and reporting of its financial and accounting
                  operations.
                  Develop a detailed operating procedure that          Open. While the problem has
                  provides guidance on the preparation, review and     been reduced significantly, we
                  approval of agency financial statements, and         continued to note that necessary
            2     requires supporting documentation to be              supporting documentation was
                  compiled, reviewed and approved for all financial    not always provided.
                  statement line items and footnotes prior to
                  submission for audit.
                  Develop policies and detailed operating              Closed.
                  procedures relating to the accounting for and
                  control of advances made by EAC. Ensure these
                  policies and procedures specify: (a) under what
                  circumstances advances are provided; (b) roles
            3     and responsibilities; and (c) monitoring and
                  reporting requirements for determining when
                  advances are reduced, and/or accounts receivable
                  should be recorded so that accounting records are
                  accurate. Reconsider providing advances to other
                  federal agencies.
                  Review accounting, grant and contracting records     Closed.
   1              for fiscal year 2012 to ensure that all advances
            4
                  have been properly recognized in the agency’s
                  accounting and subsidiary records.
                  Take action to have advances promptly returned       Closed.
                  to the agency when either the grant has expired,
                  the purpose of the grant has been completed,
            5
                  when the purpose of the non-grant advance has
                  been accomplished, or when the funds are not
                  being used in a timely manner.
                  Ensure that problems identified with undelivered     Closed.
                  orders in the accounting system are corrected, and
            6
                  controls are established to prevent such problems
                  in the future.
                  Complete the analysis of differences between         Closed.
                  EAC grant subsidiary records and the general
                  ledger accounting system, and make necessary
                  adjustments to those systems that are incorrect.
            7
                  Maintain documentation of the problems noted,
                  and revise or issue EAC policies and operating
                  procedures to ensure that the problem does not
                  recur.
                  Strengthen EAC’s subsidiary grant records to         Closed.
                  ensure that accurate and complete information is
            8
                  maintained on grant advances, disbursements,
                  and other required information.



Leon Snead & Company, P.C.                           14
                                                                                           Attachment 1

Finding     Rec              FY 2012 Recommendations                                 Status
  No.       Nos.
                    Strengthen EAC policies and procedures for           Closed.
              9     identifying the amount that should be accrued for
                    grant and non-grant liabilities.
                    Implement an internal control process that           Open.        Significant   issues
              1     provides appropriate agency oversight over the       continue in this area.
                    JVs processed by the current service provider.
    2               Provide training to EAC accounting personnel to      Open. Problems in posting JVs
              2     ensure that they have the skills to provide          during 2013 continue.
                    adequate oversight of this area.

Finding     Rec               FY 2011 Recommendations 3                               Status
  No.       Nos.
   1a        1      Strengthen the agreement with the service            Closed.
                    provider to ensure that financial statements and
                    supporting documentation are required to be
                    provided to EAC and its auditors in a timely
                    manner.
              2     Develop specific information requirements and        Closed.
                    checklists that the service provider must complete
                    and provide to EAC to support interim and year­
                    end financial statements.
    1b        4     Review all 2011 fiscal year JVs that have not        Closed.
                    been approved by EAC to ensure that the entries
                    are proper. Require the service provider to
                    provide documentation that supports it meets
                    published control procedures relating to
                    preparation of JVs.
    1d        5     Ensure that the service provider corrects the        Closed.
                    problem with its undelivered order aging report.
              6     Ensure that EAC’s internal controls over financial   Closed.
                    reporting, including strengthened oversight over
                    its accounting service provider, are re­
                    established.




3
 The following information relates to the FY 2011 audit recommendations that were still considered open
when the 2012 audit was released.


Leon Snead & Company, P.C.                             15
                                                                                         Attachment 2
                         U.S.Election Assistance Commission
                        1335 East-West Highway, Suite 4-100
                        Silver Spring, MD 20910
                        www.eac.gov




To :        Curtis W. Crider, Inspector General

From:       Alice Miller, Chiefope~~~AmiActing Executive Director
            Annette Lafferty, Ch~Yncial Officer~~ ~

Date:       December 13, 2013

Subject:    Election Assistance Commission Response to the Draft Audit Report of the U.S. Election
            Assistance Commission's Financial Statements for Fiscal Years 2013 and 2012 (Assignment
            No. I-PA-EAC-Ol-13)

The Election Assistance Commission (EAC) went into Fiscal Year (FY) 2013 with relatively new agency
staff and a financial service provider with another federal agency via memorandum of understanding.
As you know, EAC changed financial service providers on July 1, 2012. Further, two agency program
staff members and the agency accountant with experience in presenting information to its financial
statement auditors left the agency by September 2011. Due to a commitment made in October 2010,
EAC has been limiting staff replacement in an effort to improve efficiencies. Subsequently, after the loss
of staff involved with financial statement audits, existing staff were reassigned and a new CPA staff
member was hi red in February 2013. The action plan created to address FY 2012 aud it findings was
implemented in FY 2013 .

In the aud it report, Leon Snead & Company, P.c. (LSC) issued a disclaimer on the agency's FY 2013
financial statements. The agency generally concurs with facts stated in the report, where one significant
deficiency and two material weaknesses were identified (one related to restatement of the FY 2012
statements). In addition, there were uncertainties re lating to the validity of approximately $2.2 million
in a grant accrual and disbursement from the 2008 requirements payment appropriation that canceled
on September 30, 2013. As of this writing, there appears to be a serious internal control issue with the
agency's contractual disbursing officer, EAC's financial service provider. At this time, the agency is
working with the U.S. Department of Treasury to clarify the appropriateness of disbursement of funds
approved for payment by EAC prior to the end of FY 2013 issue.

Our next steps will be to obtain a legal opinion or decision on 2008 Help America Vote Act (HAVA)
Section 251 requirements payments as described in the audit report, and issue a management decision
on the propriety of the $2.2 million disbursement. Subsequent to further analysis and appropriate
evaluation of the disbursement by OMB, Treasury, and EAC management and counsel, management
may issue a written notice to meet federal reporting requirements . EAC wil l create a corrective action
plan to address findings in the audit report, and determine if additional or alternative accounting
resources in FY 2014 wil l effectively assist in improving controls and timeliness.

Following, please find the EAC responses to recommendations made in the Draft Audit Report for FYs
2013 and 2012.
                                                                                          Attachment 2



Recommendation 1: Fully document all interim decisions made concerning the accrual and subsequent
disbursement of the approximately $2.2 million payment made to one grantee from 2008
appropriations. Based upon an assessment of this documentation, strengthen internal control
processes at EAC and, as appropriate, request internal controls at the service provider be further
strengthened in this area.

Management Response: EAC will document all actions taken regarding the accrual and disbursement of
the payment from 2008 funds, and will review and reconcile the agency record of events with timeline
information provided by the service provider. The agency will develop written procedures to strengthen
internal controls such as ensuring that any and all agency and service provider staff involved is familiar
with and follow practices and mandates for accounting entries and payments. Further, EAC will request
a corrective action plan from its service provider on its processes and internal controls.

Recommendation 2: Take action, if EAC management officials determine, based upon authoritative
legal guidance, that the 2008 appropriation should have been cancelled, to meet the reporting
requirements of the ADA and OMB Circular A-136.

Management Response: EAC will take action to comply with ADA and A-136 if a legal opinion or
decision indicates a violation occurred.

Recommendation 3: Ensure a comprehensive analysis of JVs is completed prior to approving JVs
prepared by the service provider. Analyze the problems reported with JVs processed during 2013, and
strengthen controls to preclude these errors from recurring.

Management Response: EAC agrees that a sound internal control process and oversight are necessary
for the processing ofJournal Vouchers (JVs). We will work with the current service provider on a review
and documentation process for necessary JVs to ensure the reasons for the entries and the amounts for
them are fully documented at the time of the entry, and they are clear, correct, and agreed upon.
Further, EAC will analyze FY 2013 JVs, discover what recurring issues if any occurred, and will strengthen
internal controls needed such as level ofstaff involved in approving the entries, and ensure that there is
sufficient time available for review and approval prior to entry both internally and with the current and
any future service providers.

Recommendation 4: Develop specific information requirements and financial statement preparation
checklists that the service provider and EAC must complete, including affirmation that documentation is
sufficient and supports all financial statements and footnotes, prior to submitting financial statements
to OMB and for audit.

Management Response: EAC agrees that a checklist is important to ensure that all necessary steps are
taken, and plans on developing one based on EAC's extensive Accounting Manual and in conjunction with
its service provider and possibly consultants. Further, the agency will work with its current service
provider regarding an apparent lack ofstaff to provide quarterly financial statements in time to allow
the agency sufficient time to thoroughly review financial statement information before OMB quarterly
deadlines, and to meet agreed upon deadlines for providing information required for financial statement
audit in time for agency and then auditor review timely.




                                                     2
                                                                                           Attachment 2



Recommendation 5: Strengthen internal controls to ensure that necessary supporting documentation
for all financial statement line items and footnotes is compiled, reviewed, and approved by EAC
personnel before submitting the financial statement for audit and to OMB.

Management Response: With both EAC's previous and currentfinancial services provider, there has
been a pattern of receiving financial statements for review on the day or very close to the day the
statements are due to OMB. This appears to be due to insufficient provider staff to meetfederal
reporting deadlines for numerous client agencies.

Further, in order to meet the federal reporting deadlines for numerous client agencies, the service
provider staff is unavailable to work on client agency Provided by Client (PBC) audit response work.
Subsequently, audit response deadlines are continually pushed back. The changes in dates often do not
allowfor thorough agency and auditor review during the annual financial statement audit process.

EAC will examine this recurring pattern ofservice provider last minute completion of statements and
repeated agreed upon date changes for and delays in PBC responses with its financial services provider,
and work with the service provider on resolution of this issue.

Recommendation 6: Strengthen the quality control process used by EAC to ensure that financial
statements and reports presented to OMB and for audit are fairly stated in all material respects, and in
monitoring of internal controls to ensure that controls are operating effectively. Document the actions
taken to strengthen controls.

Management Response: EAC plans on writing more extensive procedures and controls identifying roles
and responsibilities in its Accounting Manual for each step in the process. In conjunction with its service
provider, the agency will detail what constitutes adequate supporting documentation for all statement
line items and notes, and staff levels of approval required at the agency and service provider.




                                                     3

                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/inspector_general/

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
                                U.S. Election Assistance Commission

of OIG Reports
                                Office of Inspector General

                               1335 East West Highway - Suite 4300

                               Silver Spring, MD 20910


                           To order by phone: Voice:     (301) 734-3104
                                                  Fax:   (301) 734-3115



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste                1335 East West Highway - Suite 4300
and Abuse Involving the               Silver Spring, MD 20910
U.S. Election Assistance
                           E-mail:    eacoig@eac.gov
Commission or Help
America Vote Act Funds     OIG Hotline: 866-552-0004 (toll free)


                           On-Line Complaint Form: www.eac.gov/inspector_general/


                           FAX: (301)-734-3115

               Inspector General

              U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the internet at:
www.eac.gov/inspector_general/
